RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20Chad Thompson, William T. Schmitt, and Don Keeney,
v.

Petitioners

Richard Michael DeWine, Governor of Ohio; Amy Acton, Director of Ohio Dep’t of
Health; and Frank LaRose, Ohio Secretary of State,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Mark R. Brown, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 7,415 words,
excluding the parts of the document that are excluded by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 2, 2021.

/s/ Mark R. Brown
MARK R. BROWN *
CAPITAL UNIVERSITY LAW
SCHOOL
303 E. Broad Street
Columbus, OH 43215
(614) 236-6590
mbrown@law.capital.edu

